CERTIFICATE OF WORD COUNT
NO. TBD
Sonia Garcia and Phillip Garcia,
Petitioner(s),
v.
Wesley Blevins,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the SONIA GARCIA AND
PHILLIP GARCIA PETITION FOR WRIT OF CERTIORARI contains 8809 words, including the parts of the
brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
September 28, 2020

SCP Tracking: Kallinen-511 Broadway Street-Cover White

